                         UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                     WASHINGTON, D.C. 20460

                                                                                             OFFICE OF
                                                                                       INSPECTOR GENERAL




February 5, 2003

Memorandum

Subject:        Auditor’s Report for the Nevada Clean Water State Revolving Fund
                as of June 30, 2001
                Audit Report No.2003-1-00060

From:           William M. Dayton
                SRF Audit Manager

To:             Wayne Nastri
                Regional Administrator
                EPA, Region 9
                San Francisco, CA

Attached is a copy of the subject audit we sent to the State of Nevada. The audit contains reports on the
financial statements, internal controls, and compliance requirements applicable to the Clean Water State
Revolving Fund (SRF) program in Nevada for the year ended June 30, 2001.

We issued an unqualified opinion on the financial statements. We qualified our opinion on the
compliance requirements applicable to the SRF program because the Nevada Clean Water State
Revolving Fund did not comply with certain compliance matters required by the Clean Water Act and
regulations. We also noted several matters involving the internal control system and operations that we
consider to be reportable conditions. In response to the draft audit report, management agreed with all of
our compliance and internal control issues, and are taking appropriate steps to correct the deficiencies.

In accordance with EPA directive 2750, the Action Official is required to take action on the findings and
recommendations in this report within 150 days.

The OIG has no objection to the release of this report to any member of the public upon request. The
report contains no confidential business or proprietary information.

If you have any questions or concerns regarding this matter, please feel free to contact me at (916) 498-
6590 or Ms. Jan Lister at (415) 947-4532.

Attachment
       OIG
       OFFICE OF INSPECTOR GENERAL


                                                                 Catalyst for Improving the Environment


Audit Report


       State of Nevada
       Division of Environmental Protection
       Water Pollution Control Revolving Fund

       Financial Statements with
       Independent Auditor’s Report, June 30, 2001


       Audit Report Number 2003-1-00060

       Issued February 5, 2003




                       Windmill and Water Tank, Eastern Nevada
Inspector General Division   Western Audit Division
Conducting the Audit:        San Francisco, California

Region Covered:              Region 9

Program Office Involved:     Division of Environmental Protection
                             Bureau of Water Pollution Control

State Offices:               Nevada State Department of Conservation
                                     and Natural Resources,
                             Division of Environment Protection,
                             Bureau of Water Pollution Control
                             Administrative Services Division

Auditors Conducting Audit:   Janet Lister
                             Eileen Collins
                                                          State of Nevada
                                              Water Pollution Control Revolving Fund

                                                               Table of Contents


Independent Auditor’s Report . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

Balance Sheet . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

Statement of Revenues, Expenses and Changes in Retained Earnings Balance . . . . . . . . . . . . . . . . . . . 3

Statement of Cash Flows . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

Notes to the Financial Statements                    ...................................................... 5

Independent Auditor’s Report on the Internal Control Structure Based on an
       Audit of the Financial Statements Performed In Accordance with
       Government Auditing Standards . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15

Independent Auditor’s Report on Compliance with the Requirements Applicable to the Environmental
       Protection Agency’s State Revolving Fund Program in Accordance with
        Government Auditing Standards . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

Supplemental Information

           Schedule 1: Detail of Changes in Bonds Payable . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22

           Schedule 2: Detail of Refunded Bonds . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
                             UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                         WASHINGTON, D.C. 20460

                                                                                                         OFFICE OF
                                                                                                  INSPECTOR GENERAL




                                        Independent Auditor’s Report

To:    Alan Biaggi, Administrator
       Division of Environmental Protection
       Department of Conservation and Natural Resources
       State of Nevada

We have audited the accompanying balance sheet of the Nevada Division of Environmental Protection Water
Pollution Control Revolving Fund Program (the Program) as of June 30, 2001, and the related statements of
revenues, expenses and changes in retained earnings balance, and cash flows for the year then ended. These
financial statements are the responsibility of the Program’s management. Our responsibility is to express an opinion
on these financial statements based on our audit.

We conducted our audit in accordance with auditing standards generally accepted in the United States of America
and standards applicable to financial audits contained in Government Auditing Standards, issued by the Comptroller
General of the United States. Those standards require that we plan and perform the audit to obtain reasonable
assurance about whether the financial statements are free of material misstatement. An audit includes examining,
on a test basis, evidence supporting the amounts and disclosures in the financial statements. An audit also includes
assessing the accounting principles used and significant estimates made by management, as well as evaluating the
overall financial statement presentation. We believe that our audit provides a reasonable basis for our opinion.

The scope of our audit did not include an audit of the financial statements of the preceding year sufficient to enable
us to express, and we do not express, an opinion on the balance sheet of the Program as of June 30, 2000 or the
related statements of revenue, expenses and changes in retained earnings balance, and cash flows for the year then
ended, nor do we express an opinion on the consistency of application of accounting principles with the preceding
year.

In our opinion, the financial statements referred to in the first paragraph present fairly, in all material respects, the
financial position of the Nevada Division of Environmental Protection Water Pollution Control Revolving Fund
Program as of June 30, 2001 and the results of its operation and its cash flows for the year then ended in conformity
with accounting principles generally accepted in the United States.

As discussed in Note 1, the financial statements referred to above are intended to present the financial position and
results of operations of the Nevada Division of Environmental Protection Water Pollution Control Revolving Fund
Program, a component fund of the State of Nevada. These statements are not intended to present the financial
position or results of operations for the State of Nevada or the Nevada Division of Environmental Protection, in
conformity with accounting principles generally accepted in the United States, of which the Water Pollution Control
Revolving Fund Program is a part.

In accordance with Government Auditing Standards, we have also issued a report, dated December 5, 2002, on our
consideration of the Nevada Division of Environmental Protection Water Pollution Control Revolving Fund Program’s
internal control structure and a report dated December 5, 2002 on its compliance with laws and regulations. Those
reports are integral parts of an audit prepared in accordance with auditing standards generally accepted in the
United States of America and should be read in conjunction with the report in considering the results of our audit.




Office of the Inspector General
Environmental Protection Agency

December 5, 2002
                   NEVADA DIVISION OF ENVIRONMENTAL PROTECTION
                        Water Pollution Control Revolving Fund
                                          Balance Sheet
                                As of June 30, 2001, with unaudited
                                comparative totals for June 30, 2000

                                                                            (Unaudited)
                                                                               2000
                                                                           Memorandum
           Assets                                         2001                 Only
Current Assets:
 Cash and cash equivalents                           $   42,732,987    $    15,611,653
 Current receivables:
    Loan interest                                         1,493,628          1,207,422
    Investment interest                                     361,700            231,702
    Due from other governments                               43,329             79,040
    Bond proceeds                                             7,031                  0
    Current portion of loans receivable                   4,539,422          3,549,713
     Total current receivables                            6,445,110          5,067,877
 Total current assets                                    49,178,097         20,679,530

Non-Current Assets:
 Loans receivable, net of current portion                86,336,131         79,109,133
 Unamortized cost of bond issuance                          193,704             50,773
  Total non-current assets                               86,529,835         79,159,906

Total assets                                          $ 135,707,932    $    99,839,436

 Liabilities and Equity
Current Liabilities:
 Accrued bond interest payable                       $      557,117    $       496,242
 Construction costs payable                                       0            426,793
 Accrued administrative costs payable                        51,991             94,814
 Current maturities of bonds payable                      1,745,000          1,670,000
   Total current liabilities                              2,354,108          2,687,849

Non-Current Liabilities:
  Bonds payable, net of current maturities               48,625,830         21,007,316
  Arbitrage rebate                                           99,800              8,383
   Total non-current liabilities                         48,725,630         21,015,699
Total liabilities                                        51,079,738         23,703,548

Equity:
 Contributed capital:
   Environmental Protection Agency                       69,070,035         63,369,864

  Retained Earnings                                      15,558,159         12,766,024
Total equity                                             84,628,194         76,135,888

Total liabilities and equity                          $ 135,707,932    $    99,839,436




                                                 2
                NEVADA DIVISION OF ENVIRONMENTAL PROTECTION
                     Water Pollution Control Revolving Fund

           Statement of Revenues, Expenses and Changes in Retained Earnings
                     For the year ended June 30, 2001 with unaudited
                           comparative totals for June 30, 2000

                                                                                              (Unaudited)
                                                                                                  2000
                                                                                             Memorandum
                                                                         2001                    Only
Revenues:
 Loan interest                                                     $ 3,246,160              $        2,973,605
 Investment earnings                                                 1,162,885                         882,100
 Total revenues                                                      4,409,045                       3,855,705

Expenses:
 Bond interest                                                         1,325,351                     1,242,755
 Amortization of bond issuance costs                                       7,082                         5,345
 Arbitrage rebate                                                         91,417                         8,383
 Administrative costs:
  Salaries and benefits                                                  107,644                       183,226
  Operating costs                                                         43,172                        32,963
  Indirect costs                                                          27,019                        40,493
  Data processing                                                          8,576                           352
  Travel                                                                   5,127                         4,892
  Training                                                                 1,522                             0
 Total expenses                                                        1,616,910                     1,518,409

Revenues over expenses                                                 2,792,135                     2,337,296

Retained Earnings, beginning of year                                  12,766,024                    10,428,728

Retained Earnings, end of year                                     $ 15,558,159                 $ 12,766,024




                       The accompanying notes are an integral part of these financial statements.

                                                           3
                 NEVADA DIVISION OF ENVIRONMENTAL PROTECTION
                      Water Pollution Control Revolving Fund

                               Combined Statement of Cash Flows
                        For the year ended June 30, 2001, with unaudited
                               comparative totals for June 30, 2000


                                                                                              (Unaudited)
                                                                                                2000
                                                                                             Memorandum
                                                                             2001                Only
Cash flows from operating activities:
 Revenues over expenses and transfers                              $        2,792,135         $ 2,337,296
   Adjustments to reconcile operating income to
   net cash flow provided by operating activities:
   Amortization                                                               20,558                   21,907
   (Increase) decrease in current receivables                          (     387,523)         (       204,220)
   Increase (decrease) in current liabilities                          (     317,324)                 495,171

Net cash provided by operating activities                                   2,107,846               2,650,154

Cash flows from capital and related financing activities:
  Funds received from EPA                                                 5,700,171              4,772,771
  Proceeds from the sale of bonds                                        41,774,992              1,321,129
  Refunding of bonds                                                   ( 12,045,000)                     0
  Deferred amounts on refunding                                        (    529,967)                     0
  Retirement of bonds payable                                          ( 1,670,000)            ( 1,655,000)
Net cash provided by capital and
 related financing activities                                              33,230,196               4,438,900

Cash flows from non-capital and related financing activities:
 Loan disbursements                                           ( 12,028,053)                   ( 8,752,311)
 Repayment of loans                                              3,811,345                      3,769,466
Net cash used by non-capital
 and related financing activities                               (8,216,708)                         (4,982,845)

Increase (decrease) in cash and cash equivalents                           27,121,334               2,106,209

Cash and cash equivalents, beginning of year                               15,611,653             13,505,444

Cash and cash equivalents, end of year                             $       42,732,987         $ 15,611,653




                       The accompanying notes are an integral part of these financial statements.

                                                           4
                    NEVADA STATE DIVISION OF ENVIRONMENTAL PROTECTION
                              Clean Water State Revolving Fund
                                Notes to Financial Statements


1.   Organization of the Fund

     The Nevada Water Pollution Control Revolving Fund Program (the Program) was established
     pursuant to Title VI of the Federal Water Quality Act of 1987, the Clean Water Act (CWA), and the
     Nevada Revised Statutes 445A.060. The purpose of the State Revolving Fund (SRF) is to provide
     low interest loans to local governments for constructing wastewater treatment facilities, and non-point
     source projects. The loan repayment period is 20 years, and all repayments, including interest and
     principal, must be credited to the SRF.

     The Program was capitalized by a series of grants from the U.S. Environmental Protection Agency
     (EPA) starting in 1989. State’s are required to provide an additional 20 percent of the Federal
     capitalization grant amount as matching funds in order to receive the grant from EPA. As of June
     30, 2001, EPA awarded $82,783,100 in capitalization grants to the State, and the State is required to
     provide $16,556,620 to the Program as its matching share. The state match is provided by state
     bonds issued on behalf of the Program by the State Treasurer’s Office.

     The SRF Program is administered by the State of Nevada’s Division of Environmental Protection
     (NDEP) in the Bureau of Water Pollution Control. The Bureau has developed policies and
     procedures for the loan program to meet the objectives of the State and Federal Acts and properly
     manage and coordinate the Program. The Bureau determines the level of funding to be contributed
     to the loan fund and used for loans. The Bureau’s primary responsibilities for the SRF include
     obtaining capitalization grants from EPA, soliciting potential interested parties for loans, negotiating
     loan agreements with local communities, reviewing and approving payment requests from loan
     recipients, monitoring the loan repayments, and conducting inspection and engineering reviews to
     ensure compliance with all applicable laws, regulations, and program requirements.

     The Bureau has numerous staff dedicated solely or in part to work on Program activities. The
     allocated portion of salaries and benefits of employees for time spent working on Program activities,
     as well as indirect costs based on direct costs, are charged to the Program. NDEP staff charge the
     Program for time spent on SRF activities, and the Program reimburses NDEP for such costs in the
     following month. The charges include the salaries and benefits of the employees, as well as indirect
     costs allocated to the Program. Employees charging time to the Program are covered by the
     benefits available to Nevada State Employees.

     The Program financial statements, footnotes, and related schedules are presented for the U.S.
     Environmental Protection Agency. The Program’s account balances and activities are included in
     Nevada’s Comprehensive Annual Financial Report (CAFR) as part of the Municipal Bond Bank
     special revenue fund, which uses the modified accrual basis of accounting. Because the Program is
     blended into this special revenue fund, its assets, liabilities, equity and activities are not identifiable in
     Nevada’s CAFR. Also, because of the different reporting methods, there may be differences
     between the amounts reported in these financial statements and Nevada’s CAFR.


2.   Summary of Significant Accounting Policies

     Basis of Accounting

     The Program’s financial statements are presented as an enterprise fund using the accrual method of
     accounting whereby revenues are recorded when earned and expenses are recorded when the




                                                        5
                    NEVADA STATE DIVISION OF ENVIRONMENTAL PROTECTION
                              Clean Water State Revolving Fund
                                Notes to Financial Statements


2.   Summary of Significant Accounting Policies (continued)

     related liability is incurred. All assets and liabilities associated with the operations of the Program are
     included in the balance sheet. An enterprise fund is used since the Program’s operations are similar
     to a financing institution where net income and capital maintenance are appropriate determinations of
     accountability that provide information to the EPA to assist in evaluating whether the Program is
     operating with the requirements of the CWA. In preparing the Program’s financial statements,
     Nevada follows the accounting pronouncements of the Governmental Accounting Standards Board
     (GASB), as well as statements issued by the Financial Accounting Standards Board (FASB) before
     November 30, 1989, unless FASB pronouncements conflict with or contradict GASB
     pronouncements.

     Cash and Cash Equivalents

     The Nevada State Treasurer is an elected Constitutional Office and part of the Executive Branch of
     State government. The Treasurer is responsible for the handling of all State cash as a fiscal agent
     for the owning fund as discussed in Note 3. The Treasurer manages an investment pool where all
     temporary surplus cash is invested. The investment pool has the same general characteristics as
     demand deposit accounts. Invested funds are considered to be cash equivalents. Management of
     the Program does not have control over the investment of excess cash, and the statement of cash
     flows considers all funds deposited with the Treasurer to be cash and cash equivalents, regardless of
     actual maturities of the underlying investments. Deposits with the Treasurer are accounted for on the
     balance sheet as cash and cash equivalents. Investment interest earnings on these deposits are
     received by the Program on a quarterly basis.

     Loans Receivable

     Nevada operates the Program as a direct loan program, whereby the majority of loans made to
     waste water treatment facilities are funded by the Federal capitalization grant and/or match from
     State funds. Additional loans can be made from revolving funds that have been repaid to the
     Program, Program earnings and from leveraged funds. The Program’s loans are evidenced by a
     formal loan contract between the Division and the borrower. Loan funds are disbursed to borrowers
     after they incur costs for the purposes of the loan, request reimbursement from the Program, and the
     Program receives the Federal share from EPA. Interest rates are based on the Bond Buyer Municipal
     Index and currently range from 3.125 to 4.0 percent and are calculated from the date that funds are
     advanced. Interest is accrued and payable during the construction period. After the final loan
     disbursement has been made, the loan and agreement amounts are adjusted for the actual amounts
     disbursed. Full repayment must be received by the Program within 20 years of first disbursement.
     No provision for doubtful accounts has been made as all loans are current, and management
     believes that all loans will be repaid according to the loan terms.

     Bonds Payable

     The State issues water pollution control bonds to meet it’s state match obligation. The State has also
     issued additional leveraged bonds to accelerate financing certain projects beyond amounts made
     available by the Federal capitalization grants. Bond discounts, premiums and costs of issuing the
     bonds are amortized over the life of the bonds. All bonds are backed by the full faith and credit of the
     State of Nevada, for which the Program is primarily responsible for repayment.




                                                       6
                   NEVADA STATE DIVISION OF ENVIRONMENTAL PROTECTION
                             Clean Water State Revolving Fund
                               Notes to Financial Statements


2.   Summary of Significant Accounting Policies (continued)

     Contributed Capital

     In accordance with generally accepted accounting principles (GAAP), funds received from the EPA
     for the capitalization of the Program are recorded under equity as contributed capital. The State
     match obligation is not recognized under contributed capital, as discussed above under Bonds
     Payable. Nevada provides the state match obligation by issuance of general obligation bonds for
     which the Program is primarily responsible for repayment. As such, it is recorded as a liability on the
     balance sheet.

     Reclassifications

     Certain amounts in the 2000 unaudited financial statements have been reclassified to conform to the
     presentation in the 2001 financial statements.


3.   Cash and Cash Equivalents

     All monies in the Program are deposited with the State Treasurer’s Office and are considered to be
     cash. The Treasurer is responsible for maintaining and investing the pooled cash balances in
     accordance with Nevada State laws. The Treasurer is required to maintain a mix of investments in
     order to allow funds to be withdrawn at any time to meet normal operating needs. The Program’s
     share of the investment income is based on the average daily balance for the period and is credited
     to the Program quarterly. Details of the investments can be obtained from the State Treasurer’s
     Office.

     All cash and investments are stated at cost, which approximates fair market value. Investments held
     by the State Treasurer’s Office are not categorized because they are not evidenced by securities that
     exist in physical or book entry form.

                                                                  Carrying               Market
                                                                  Amount                  Value
     Not subject to categorization:
      Consolidated Cash Pool                                   $ 42,732,987         $ 42,732,987


4.   Loans Receivable

     The Program makes loans to qualified entities for projects that meet the eligibility requirements of the
     Clean Water Act. Loans are financed by capitalization grants, state match, interest earnings,
     revolving funds and leveraged funds. Interest rates on the loans are based on 62 ½ percent of the
     Bond Buyers Index rate and vary between 3.125 and 4.00 percent. Loan maturities are 20 years.
     Semiannual payments are due on January 1st or July 1st. Interest during the construction period is
     calculated from the date funds are advanced until the final loan closing. The loan contract requires
     the communities to issue local bonds to secure the loan amount which the State has pledged as
     collateral for bonds payable.




                                                     7
                   NEVADA STATE DIVISION OF ENVIRONMENTAL PROTECTION
                             Clean Water State Revolving Fund
                               Notes to Financial Statements


4.   Loans Receivable (continued)

     The Program has issued loans for constructing wastewater treatment facilities and for non-point
     source projects. From inception of the program, two local agencies have had existing loans with
     balances of $10,784,950 refinanced by the Program at lower interest rates. There are four loans
     have been funded with approximately $39 million in leveraged funds. In addition, the Program has
     issued one non-point source loan for $12 million.



     Details of loans receivable as of June 30, 2001:

                                    Authorized
                                      Loan               Amount        Principal       Outstanding
                                    Amounts             Disbursed       Repaid          Balance

        Completed projects       $ 91,537,820       $ 91,377,437 $ 20,521,157 $        70,856,280
        Projects in progress       52,750,000         20,019,273            0          20,019,273

         Totals                  $ 144,287,820      $111,396,710 $ 20,521,157 $        90,875,553

        Less amounts due within one year                                                4,539,422

        Non-current loans receivable, June 30, 2001                                $   86,336,131



        Loans mature at various intervals through January 1, 2021. The scheduled minimum principle
        repayments on loans for completed projects in subsequent years are as follows

        Year ending June 30:                            Amount

             2002                                   $     4,539,422
             2003                                         4,990,830
             2004                                         5,262,362
             2005                                         5,509,489
             2006                                         5,719,472
             Thereafter                                  64,853,978

                                                    $ 90,875,553

        Loans to Major Local Agencies:

        As of June 30, 2001, the Program made loans to six local agencies that had balances totaling $5
        million or more, and with balances in the aggregate which exceeded $73 million. The outstanding
        principal balances of these loans represent approximately 81 percent of the total loans receivable,
        as follows:




                                                     8
                      NEVADA STATE DIVISION OF ENVIRONMENTAL PROTECTION
                                Clean Water State Revolving Fund
                                  Notes to Financial Statements


4.      Loans Receivable (continued)

        Loans to Major Local Agencies (continued):
                                                                     Original
                                                                       Loan          Outstanding
        Borrower                                                     Amount            Balance

        City of Henderson                                         $ 41,436,490 $ 30,443,527
        City of Sparks                                              15,014,488   12,484,562
        Carson City                                                 10,620,000    9,677,084
        Washoe County                                               36,759,520    8,657,151
        City of Mesquite                                             7,880,000    6,249,296
        City of Elko                                                 7,500,000    5,784,464
        Total loans to major agencies                              119,210,498   73,296,084

        Loans to all other agencies                                 25,077,322        17,579,469

        Total loans receivable as of June30, 2001                 $ 144,287,820      $ 90,875,553



5.   Bonds Payable:

     Bonds Payable - All Series (State Match, Leveraged and Refunded)

     The State provides the required matching funds through state match bonds. As of June 30, 2001,
     $12,315,000 in such bonds have been issued. As of June 30, 2001, $4,374,132 in state match bond
     funds were available to match EPA funds. The State also issues bonds for financing projects that
     exceed the amount of available funding, which are known as leveraged bonds. As of June 30, 2001,
     $38,510,000 in leveraged bonds had been issued, and $ 28,148,071 was available for current and
     future projects.

     In May 2001, the State refinanced (called refunding) $3,170,000 of older state match bonds and
     $8,875,000 of leveraged bonds to take advantage of lower interest rates. These bonds were
     refunded in the 2001A1 series that were issued for $28,720,000. In accordance with generally
     accepted accounting principles, deferred amounts of $529,967 due on refunding are deducted from
     the outstanding balance of the 2001A1 bonds for financial statement presentation.

     Details of bonds payable as of June 30, 2001 are as follows:
     State Match Bonds:                                 Balance            Current             Long-Term

     Series September 1, 1991, General
     Obligation Water Pollution Control
     Revolving Fund Bonds, interest of 5.20%
     to 6.10% due semiannually, principal due
     annually to August 1, 2001.                    $ 150,000            $ 150,000             $    0

     Series September 1, 1992, General
     Obligation Water Pollution Control
     Revolving Fund Bonds, interest of 3.0%
     to 5.4% due semiannually, principal due
     annually to August 1, 2002.                        590,000            300,000                  290,000




                                                    9
                      NEVADA STATE DIVISION OF ENVIRONMENTAL PROTECTION
                                Clean Water State Revolving Fund
                                  Notes to Financial Statements


5.   Bonds Payable (continued)

     Series June 1, 1994, General Obligation
     Water Pollution Control Revolving Fund
     Bonds, interest of 5.125% to 5.5% due
     semiannually, principal due annually to
     February 1, 2004.
                                                       705,000    240,000      465,000

     Series September 1, 1995A, General
     Obligation Water Pollution Control
     Revolving Fund Matching Bonds, interest
     of 4.0% to 5.1% due semiannually,
     principal due annually to February 1,
     2005.                                             380,000    100,000      280,000

     Series May 1, 1996A, General Obligation
     Water Pollution Control Revolving Fund
     Match Bonds, interest of 3.75% to 4.85%
     due semiannually, principal due annually
     to August 1, 2003.
                                                       335,000    110,000      225,000

     Series July 1, 1998D, General Obligation
     Water Pollution Control Revolving Fund
     Matching Bonds, interest of 4.25% to
     4.875% due semiannually, principal due
     annually to August 1, 2013.
                                                   2,895,000      190,000     2,705,000


     Series September 1, 1999C, General
     Obligation Water Pollution Control
     Revolving Fund Match Bonds, interest of
     5.25% to 5.3% due semiannually,
     principal due annually to August 1, 2012.     1,320,000      100,000     1,220,000

     Series July 1, 2000C, General Obligation
     Water Pollution Control Revolving Fund
     Matching Bonds, interest of 5% to 5.25%
     due semiannually, principal due annually
     to August 1, 2011.                            1,315,000            0     1,315,000

     Series May 1, 2001B, General Obligation
     (Limited Tax) Water Pollution Control
     Revolving Fund Matching and Refunding
     Bonds, interest of 4% to 4.7% due semi-
     annually, principal due annually to August
     1, 2013.                                      4,625,000            0     4,625,000

     Total State match bonds payable              12,315,000     1,190,000   11,125,000




                                                  10
                      NEVADA STATE DIVISION OF ENVIRONMENTAL PROTECTION
                                Clean Water State Revolving Fund
                                  Notes to Financial Statements


5.   Bonds Payable (continued)
     Series September 1, 1995B, General
     Obligation Water Pollution Control
     Revolving Fund Leveraged Bonds,
     interest of 4.2% to 7.0% due
     semiannually, principal due annually to
     February 1, 2005.                                          1,700,000              395,000       1,305,000

     Series May 1, 1996B, General Obligation
     Water Pollution Control Revolving Fund
     Leveraged Bonds, interest of 3.75% to
     5.15% due semi-annually ,principal due
     annually to August 1, 2016.                                1,070,000              160,000        910,000

     Series May 1, 2001A-1, General
     Obligation (Limited Tax) Water Pollution
     Control Revolving Fund Leveraged and
     Refunding Bonds, interest of 4% to 5%
     due semi-annually, principal due annually
     to August 1, 2019.                                        28,190,033                     0     28,190,033

     Series May 1, 2001A-2, General
     Obligation (Limited Tax) Water Pollution
     Control Revolving Fund Leveraged
     Bonds, interest of 6% to 6.5% due
     semiannually, principal due annually to
     August 1, 2017.                                            7,020,000                     0      7,020,000

     Total Leveraged bonds payable                             37,980,033              555,000      37,425,033

     Total State match and leveraged bonds
      payable                                                  50,295,033            1,745,000      48,550.033

     Bond premiums and discounts                                    75,797                    0         75,797

     Total bonds payable                                    $ 50,370,830           $ 1,745,000    $ 48,625,830



     The debt service requirements to maturity, excluding unamortized premium and discounts, are as
     follows:

                                                Principle           Interest       Total

                 2002                      $1,745,000          $ 2,019,000     $  3,764,000
                 2003                       3,020,000             2,395,000       5,415,000
                 2004                       3,040,000             2,253,000       5,293,000
                 2005                       2,980,000             2,108,000       5,088,000
                 2006                       3,035,000             1,958,000       4,993,000
            Thereafter                     37,005,000            12,106,000      49,111,000
                Totals                   $ 50,825,000          $ 22,839,000    $ 73,664,000




                                                               11
                   NEVADA STATE DIVISION OF ENVIRONMENTAL PROTECTION
                             Clean Water State Revolving Fund
                               Notes to Financial Statements


6.   Arbitrage Rebate

     In accordance with Internal Revenue Code Section 148(f) relating to arbitrage restrictions on tax-
     exempt bonds, an arbitrage rebate payable in the amount of $99,800 has been recorded for the
     Series 1999C state match bond issue and Series 2001 A-1 Leveraged and Refunding bond issue.
     As of June 30, 2001, the portion of the rebate due for the 1999C bonds will be due by November 28,
     2004, and the portion due for the 2001 A-1 bonds will be due July 23, 2006.

7.   Contributed Capital and Fund Balance

     The Program is capitalized by EPA grants authorized by the Clean Water Act. All EPA funds drawn
     for loans are recorded as contributed capital from EPA. The State of Nevada is responsible for
     matching 20 percent of the EPA capitalization grants and this obligation is met by funds provided by
     state match bonds which are repayable from loan interest repayments (discussed under Note 5). As
     of June 30, 2001, EPA has awarded capitalization grants of $82,783,100 to the State, of which
     $69,070,035 has been drawn for loans and administrative expenses.

     The following summarizes the EPA capitalization grants awarded, amounts drawn on each grant as
     of the balance sheet date, and balances available for future loans:

                                    Total Draws                      Total Draws       Grant Funds
                         Grant         As of               2001          as of           Available,
                        Amount     June 30, 2000          Draws     June 30, 2001     June 30, 2001

     1989          $ 4,577,200       $ 4,577,200          $      0   $ 4,577,200  $        0
     1990             4,738,000        4,738,000                 0     4,738,000           0
     1991            10,074,800       10,074,800                 0   10,074,800            0
     1992             9,534,900        9,329,608           160,883     9,490,491      44,409
     1993             9,431,000        9,116,633                 0     9,116,633     314,367
     1994             5,813,800        5,620,007                 0     5,620,007     193,793
     1995             6,007,800        5,807,540                 0     5,807,540     200,260
     1996             9,904,700        4,976,813         2,126,316     7,103,129   2,801,571
     1997             2,990,500                0                 0             0   2,990,500
     1998             6,577,300        5,929,265                 0     5,929,265     648,035
     1999             6,577,900        3,199,998         3,158,639     6,358,637     219,263
     2000             6,555,200                0           254,333       254,333   6,300,867
     Totals        $ 82,783,100     $ 63,369,864       $ 5,700,171 $ 69,070,035 $ 13,713,065

8.   Contingencies and Subsequent Events

     Contingencies

     The Program is exposed to various risks of loss related to torts, thefts of assets, errors or omissions,
     injuries to state employees while performing Program business, or acts of God. The State maintains
     insurance for all risks of loss which is included in the indirect costs allocated to the Program. There
     have not been any claims against the Program since its inception in 1989 and no contingencies
     came to our attention during our audit which require disclosure or accrual under Statement of
     Financial Accounting Standards No. 5.




                                                     12
                   NEVADA STATE DIVISION OF ENVIRONMENTAL PROTECTION
                             Clean Water State Revolving Fund
                               Notes to Financial Statements


8.   Contingencies and Subsequent Events (continued)

     Related Parties

     There are no related party transactions with or related to amounts receivable from management of
     the Nevada State Division of Environmental Protection Water Pollution Control Revolving Fund
     Program.

     Subsequent Events

     Subsequent to June 30, 2001, several events occurred that have a direct and material effect on the
     Program’s operations and the financial position as of June 30, 2001. These events are as follows:

     The U.S. EPA awarded the fiscal year 2001 capitalization grant to the State on September 11, 2001
     for a total of $7,795,320, the federal component is $6,496,100 and the required state matching funds
     is $1,299,220.

     The Program also entered into 3 binding commitments totaling $15,130,000, between July 1, 2000
     and November 30, 2002.

     No other subsequent events following the fiscal year-end required disclosure in these financial
     statements.




                                                    13
 Independent Auditor’s Report on the
Internal Control Structure Based on an
   Audit of the Financial Statements
     Performed in Accordance with
    Government Auditing Standards
                                UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                                WASHINGTON, D.C.

                                                                                                OFFICE OF
                                                                                           INSPECTOR GENERAL




TO: Alan Biaggi, Administrator
    Division Environmental Protection
    Department of Conservation and Natural Resources
    State of Nevada


We have audited the financial statements of Nevada Division of Environmental Protection Water Pollution
Control Revolving Fund Program (the Program) as of and for the year ended June 30, 2001, and have
issued our report thereon dated December 5, 2002.

We conducted our audit in accordance with auditing standards generally accepted in the United States of
America and standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States. Those standards require that we plan and perform the
audit to obtain reasonable assurance about whether the financial statements are free from material
misstatement.

The management of the Nevada Division of Environmental Protection Water Pollution Control Revolving
Fund Program is responsible for establishing and maintaining an internal control structure. In fulfilling its
responsibilities, estimates and judgements by management are required to assess the expected benefits
and related costs of internal control policies and procedures. The objectives of an internal control
structure are to provide management with reasonable, but not absolute, assurance that assets are
safeguarded against loss from unauthorized use or disposition and that transactions are executed in
accordance with management’s authorization and recorded properly to permit the preparation of financial
statements in accordance with generally accepted accounting principles. Because of inherent limitations
in any internal control structure, errors or irregularities may nevertheless occur and not be detected. Also,
projection of any evaluation of the structure to future periods is subject to the risk that procedures may
become inadequate because of changes in conditions or that the effectiveness of the design and
operation of policies and procedures may deteriorate.

In planning and performing our audit of the financial statements of the Nevada Division of Environmental
Protection Water Pollution Control Revolving Fund Program for the year ended June 30, 2001, we
obtained an understanding of the internal control structure. With respect to the internal control structure,
we obtained an understanding of the design of relevant policies and procedures and whether they have
been placed in operation, and we assessed control risk in order to determine our auditing procedures for
the purpose of expressing our opinion on the financial statements and not to provide an opinion on the
internal control structure. Accordingly, we do not express such an opinion.

Our consideration of the internal control over financial reporting would not necessarily disclose all matters
in the internal control over financial reporting that might be material weaknesses under standards
established by the American Institute of Certified Public Accountants. A material weakness is a condition
in which the design or operation of one or more of the internal control components does not reduce to a
relatively low level the risk that misstatements in amounts that would be material in relation to the financial
statements being audited may occur and not be detected within a timely period by employees in the
normal course of performing their assigned functions. We noted the following matters involving the
internal control structure and its operations, as discussed in the following paragraphs, that we consider to
be reportable conditions, but we do not consider these to be material weaknesses as defined above.




                                                      15
The control environment established by management does not ensure that management’s assertions over
financial and accounting matters are being achieved. Specifically, we noted:

    P The accounting function needs to be dedicated solely to this program.

    The Nevada Division of Environmental Protection has not established a dedicated accounting
    position to the SRF program. The accounting for the CWSRF is one of many responsibilities within
    the Administrative Services Office. As a result, Nevada has not been able to provide basic financial
    information, such as financial statements, trial balances, and loan information necessary to properly
    manage the program. These matters are discussed in the more detail in the following section.

         Trial balances and financial statements.

         CWSRF’s are required to establish fiscal controls to assure proper accounting for program
         operations. Part of those controls include a trial balance, balance sheet, statement of revenues,
         expenses and changes in retained earnings, a statement of cash flows and notes to the
         financial statements. However, Nevada had not prepared a trial balance or financial statements
         in preparation of our audit. The OIG has assisted the State in preparation of these statements
         in the prior and current audit, however, we will be unable to do so in the future. New auditing
         standards prohibits our providing these types of services in future years. For this reason, the
         State must now ensure these statements are prepared for the CWSRF. In the event that it is
         not corrected during the next year audited, we will be forced to disclaim an opinion on the fair
         presentation of the financial statements.

         Loan schedules.

         The loan schedules maintained are not adequate to provide sufficient detail on loans
         outstanding. There are numerous versions of loan summary schedules, some prepared by the
         Financial Analyst, some by the State Treasurer, and some by the program office. Much of the
         data available was based on the transaction level instead of the summary level by loan. Ideally,
         the State could provide a summary sheet for all activity on the loan, including disbursements,
         construction period interest and repayment activity. Full utilization of the project management
         database should achieve this.

    We commend Nevada for reclassifying the SRF programs as an enterprise fund. However, we
    recommend that it take the next step in managing and accounting for this program and make the
    accounting position dedicated to the SRF, and providing meaningful financial information in a timely
    manner.

    P Project management database not utilized.

    We previously recommended Nevada implement a project and financial management database to
    track loan and other SRF activity. In response to this recommendation, EPA assisted Nevada in
    funding approximately $35,000 for the development of this software. At the time of our fieldwork,
    neither the SRF program office nor the Administrative Services Office were utilizing the software to
    maintain the loan database. While we understand that new software programs are time consuming
    to learn and install, the program is proven in many states and provides a great deal of information
    that management can, and should, use to operate the program. When the database is actively
    utilized by both offices and periodically reconciled to the State’s official accounting system, it can
    assist in preparing financial statements and other required reporting.




                                                    16
     P Communication and cooperation between departments is lacking.

     During the course of the audit we found that better communication is need between the various
     program offices involved with management of the CWSRF. The Treasurer’s Office maintain the
     bond and loan information, while the Division maintains the other information. The CWSRF is a
     combination of all these activities, and coordination and communication among the departments is
     necessary and vital to properly record all activities.

Nevada of Nevada Response

The preceding matters have been discussed with the Nevada Division of Environmental Protection, and
provided the following comments:

     We have reviewed the draft Independent Auditor’s Report and feel it fairly presents NDEP’s situation.
     We have discussed these issues in great detail and have already made significant strides in
     resolving some of them. The database has been debugged and is being utilized effectively and
     should be able to provide the information for which it was designed. In fact, there is the possibility of
     further enhancements that could extend the database’s ability to provide financial information.

     There is also the possibility that pending legislation may give us the dedicated position
     discussed in your report. This would enable us to provide timely communication between
     all components of the SRF program and needed financial information and planning
     activities.

This report is intended for the information of management of the Nevada Division of Environmental
Protection Water Pollution Control Revolving Fund Program and the United States Environmental
Protection Agency. However, this report is a matter of public record and distribution is not limited.




Office of Inspector General
Environmental Protection Agency

December 5, 2002




                                                      17
          Independent Auditor’s Report
on Compliance with Requirements Applicable to the
       Environmental Protection Agency’s
         State Revolving Fund Program
               in Accordance with
         Government Auditing Standards
                               UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                              WASHINGTON, D.C.

                                                                                            OFFICE OF
                                                                                       INSPECTOR GENERAL




TO: Alan Biaggi, Administrator
    Division of Environmental Protection
    Department of Conservation and Natural Resources
    State of Nevada


We have audited the financial statements of the Nevada Division of Environmental Protection Water
Pollution Control Revolving Fund Program (the Program) as of and for the year ended June 30, 2001, and
have issued our report thereon dated December 5, 2002.

We have also audited the Program’s compliance with requirements governing the following:

     C   Allowability for Specific Activities;
     C   Allowable Costs/Cost Principles;
     C   Cash Management;
     C   State Matching;
     C   Period of Availability of Funds and Binding Commitments;
     C   Program Income;
     C   Reporting;
     C   Sub-recipient Monitoring, and;
     C   Special tests and provisions;

The above compliance requirements are applicable to the Nevada Division of Environmental Protection
Water Pollution Control Revolving Fund Program for the year ended June 30, 2001. The management of
the Program is responsible for it’s compliance with those requirements. Our responsibility is to express an
opinion on those requirements based on our audit.

We conducted our audit in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and U.S. Environmental Protection Agency, Clean Water
State Revolving Fund Audit Guide (June 1998). Those standards require that we plan and perform the
audit to obtain reasonable assurance about whether material noncompliance with the requirements of the
SRF program occurred. An audit includes examining, on a test basis, evidence about the Program’s
compliance with those requirements. We believe that our audit provides a reasonable basis for our
opinion.

As part of obtaining reasonable assurance about whether the Nevada Division of Environmental
Protection Water Pollution Control Revolving Fund Program’s financial statements are free of material
misstatement, we performed tests of its compliance with certain provisions of laws, regulations, and
grants, noncompliance with which could have a direct and material effect on the determination financial
statement amounts. The results of our tests disclosed no instances of noncompliance that we are
required to report under Government Auditing Standards.

In our opinion, the Nevada Division of Environmental Protection Water Pollution Control State Revolving
Fund Program complied, in all material respects, with the specific program requirements listed above for
the year ended June 30, 2001, except as discussed in the following section.


                                                    19
EPA regulation 40 CFR 35.3130(c) requires that the state have the “legal, managerial, technical and
operational capabilities to administer the program” in order to receive a capitalization grant. In addition,
the State’s financial management systems must provide accurate, current and complete disclosure of the
financial results of the program, as required by 40 CFR 31.20(b)(1). In our opinion, the State of Nevada
has not fully demonstrated these capabilities. The State needs to assure that it fully complies with these
regulations, and take corrective action to address the issues identified in the internal control and
compliance sections of this report.

As discussed in the Report on Internal Controls, several reportable conditions were identified during the
course of this audit which could also be considered compliance deficiencies. We identified the following
matters which, while related to internal controls discussed in the preceding section, also affect compliance
with certain provisions of laws, regulations, and grants. These items were: the need for dedicated
accounting services for this program; the failure to prepare trial balances or financial statements; the
project management database was not being fully utilized; numerous versions of loan summary schedules
and, the need for improved communication and information exchange.

This report is intended for the information of management of Nevada Division of Environmental Protection
Water Pollution Control Revolving Fund Program and the United States Environmental Protection Agency.
However, this report is a matter of public record and distribution is not limited.




Office of Inspector General
Environmental Protection Agency

December 5, 2002




                                                     20
Supplemental Information
Details of changes in bonds payable for the year ended June 30, 2001:                                 Schedule 1

                                                               Loan
                                       July 1, 2000            New             Repayment     June 30, 2001
                           Balance          Issues         Retirements          Refund           Balance
State Match Bonds:
       1991 Series        $ 925,000             -              ( 175,000)       ( 600,000)   $      150,000
       1992 Series         2,110,000            -              ( 315,000)     ( 1,205,000)          590,000
       1994 Series         1,940,000            -              ( 245,000)       ( 990,000)          705,000
       1995A Series          860,000            -              ( 105,000)       ( 375,000)          380,000
       1996A Series          445,000            -              ( 110,000)                -          335,000
       1998D Series        3,090,000            -              ( 195,000)                -        2,895,000
       1999C Series        1,320,000            -                       -                -        1,320,000
       2000C Series                -    1,315,000                       -                -        1,315,000
       2001B Series                -    4,625,000                       -                -        4,625,000
                                                                                                 12,315,000
Leveraged Bonds:
     1995B Series          8,325,000            -              ( 375,000)     ( 6,250,000)        1,700,000
     1996B Series          3,845,000            -              ( 150,000)     ( 2,625,000)        1,070,000
     2001A2 Series                 -    7,020,000                       -                -        7,020,000
     2001A1 Series                 -   28,720,000                       -                -       28,720,000
                                                                                                 38,510,000

    Gross Total           22,860,000   41,680,000          ( 1,670,000)      (12,045,000)        50,825,000

    Discount          (     194,957)    ( 46,935)                17,956                  -       ( 223,936)
    Premium                  12,273       291,940          (      4,480)                 -         299,733
    Deferred Costs                0     ( 545,554)               15,587                  -       ( 529,967)

    Net Total         $ 22,677,316 $ 41,379,451        ($ 1,640,937)        ($ 12,045,000)   $ 50,370,830




                                                      22
Detail of Refunded Bonds:                                                      Schedule 2
                                                      Stated Maturity       Amount
State Match Bonds:
        Series September 1, 1991,                     August 1, 2002      $ 150,000
        General Obligation (Limited Tax)              August 1, 2003        125,000
        Water Pollution Control Revolving Fund        August 1, 2004        125,000
        Matching Bonds                                August 1, 2005        100,000
                                                      August 1, 2006        100,000
        Refunded Amount                                                     600,000

        Series September 1, 1992,                     August 1, 2003         275,000
        General Obligation (Limited Tax)              August 1, 2004         260,000
        Water Pollution Control Revolving Fund        August 1, 2005         245,000
        Matching Bonds                                August 1, 2006         225,000
                                                      August 1, 2007         200,000
        Refunded Amount                                                    1,205,000

        Series June 1, 1994                           February 1, 2005      220,000
        General Obligation (Limited Tax)              February 1, 2006      210,000
        Water Pollution Control Revolving Fund        February 1, 2007      200,000
        Matching Bonds                                February 1, 2008      185,000
                                                      February 1, 2009      175,000
        Refunded Amount                                                     990,000

        Series June 1, 1995A                          February 1, 2006       85,000
        General Obligation (Limited Tax)              February 1, 2007       80,000
        Water Pollution Control Revolving Fund        February 1, 2008       75,000
        Matching Bonds                                February 1, 2009       70,000
                                                      February 1, 2010       65,000
        Refunded Amount                                                     375,000

Leveraged Bonds:

        Series September 1, 1995B,                    February 1, 2006       480,000
        General Obligation (Limited Tax) Water        February 1, 2007       505,000
        Pollution Control Revolving Fund              February 1, 2008       535,000
        Leveraged Bonds                               February 1, 2009       565,000
                                                      February 1, 2010       600,000
                                                      February 1, 2011       630,000
                                                      February 1, 2012       670,000
                                                      February 1, 2013       710,000
                                                      February 1, 2014       755,000
                                                      February 1, 2015       800,000
        Refunded Amount                                                    6,250,000

        Series May 1, 1996B,                          August 1, 2007         210,000
        General Obligation (Limited Tax)              August 1, 2008         225,000
        Water Pollution Control Revolving Fund        August 1, 2009         235,000
        Leveraged Bonds                               August 1, 2010         250,000
                                                      August 1, 2011         265,000
                                                      August 1, 2012         280,000
                                                      August 1, 2013         295,000
                                                      August 1, 2014         310,000
                                                      August 1, 2015         330,000
                                                      August 1, 2016         225,000
        Refunded Amount                                                    2,625,000

Total Amount of Advance Refund                                           $12,045,000




                                                 23
                                            Report Distribution

EPA, Region 9:

         Regional Administrator
         Director, Water Division
         Chief, Norther California Office, Water Division
         State Revolving Fund Coordinator
         Audit Followup Coordinator

EPA, Headquarters:

         Director, Grants Administration
         Agency Followup Coordinator
         Associate Administrator for Congressional
           and Legislative Affairs
         Associate Administrator for Communication, Education,
           And Public Affairs
         State Revolving Fund Audit Manager
         State Revolving Fund Branch, Office of Wastewater Management

Other:

         State of Nevada, State Department of Conservation
         and Natural Resources, Division of Environmental Protection
